TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Custodial Detail Database Should
                     Help Improve Accountability; However,
                       Significant Financial Management
                       Issues Still Need to Be Addressed



                                         December 2005

                              Reference Number: 2006-10-029




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         December 30, 2005


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Custodial Detail Database Should Help
                             Improve Accountability; However, Significant Financial Management
                             Issues Still Need to Be Addressed (Audit # 200410039)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has developed an effective plan to improve accountability over Federal tax revenues, and
 to ascertain whether applicable Federal financial accounting standards and requirements were
 addressed in any planned enhancements to the IRS’ existing revenue accounting systems.

 Synopsis
 During Fiscal Year (FY) 2004, the IRS collected over $2 trillion in Federal tax revenue, which
 constituted approximately 95 percent of all Federal revenue. However, as reported by the
 Government Accountability Office (GAO) for the last several years, the systems used to account
 for these revenues do not meet current Federal financial management guidelines. For example,
 the IRS’ Federal tax revenue financial management systems lack adequate audit trails, cannot
 readily produce reliable information regarding unpaid assessments at interim periods, and cannot
 readily generate custodial financial information needed for year-end reporting.
 To address these weaknesses, the IRS is currently in the process of developing the Custodial
 Detail Database (CDDB). The purpose of the CDDB is to provide sub-ledgers for the custodial
 financial activities of the IRS. The IRS also plans to use the CDDB to track unpaid assessments
 throughout the year and to help support the lengthy extraction, reconciliation, and summarization
 process needed to produce the IRS’ annual financial custodial statements.
 Our preliminary assessment indicates the IRS faces a number of significant challenges in
 meeting these objectives, especially the development of a system that would support the
 production of current and reliable information regarding tax receivables throughout the year.
                        The Custodial Detail Database Should Help Improve
                     Accountability; However, Significant Financial Management
                                 Issues Still Need to Be Addressed


Any system that the IRS develops to provide information regarding tax receivables at interim
periods would need to address collectibility and accurately account for and eliminate duplicate
assessments to be useful to end users and decision makers. For example, in FY 2004 the IRS
estimated that only $20 billion (22 percent) of the $89 billion in gross Federal tax receivables in
its records were reasonably collectible. Presently, the IRS only estimates the collectibility of tax
receivables at year-end based on a detailed statistical analysis of unpaid assessments. Similarly,
the IRS only identifies and accounts for duplicate compliance assessments in its source systems
once per year through the expenditure of significant resources.
Although the CDDB should help improve custodial financial management, it will not by itself
resolve all of the IRS’ financial information-related internal control weaknesses. Specifically,
the GAO reported in their most recent Financial Statement Audit Report,1 that the IRS continues
to be unable to determine the specific amount of revenue it actually collects for three of the
Federal Government’s four largest revenue sources—Social Security, hospital insurance, and
individual income taxes. This is primarily because the accounting information needed to validate
the taxpayer’s liability and record the payment to the proper trust fund is provided on the tax
return, which is received months after the payment is submitted. The IRS collected
approximately $1.7 trillion in individual income, Social Security, and hospital insurance taxes in
FY 2004, but has to use statistical methods to estimate the amount of these taxes. The GAO also
reported that the IRS continues to be unable to determine, at the time payments are received,
collections for the Highway Trust Fund and other trust funds that receive excise tax receipts.
The IRS informed us that it plans to include the capability to accumulate additional data
regarding revenue sources in the Customer Account Data Engine (CADE)2 which is currently
being developed. However, even with this enhanced ability to record revenue-related data the
IRS will still not be able to fully determine the specific amount of revenue it actually collects for
excise, individual income, Social Security, and hospital insurance taxes unless it requires
taxpayers to provide more information at the time tax payments are made. The IRS studied the
feasibility of collecting this additional information and decided in early 2003 to explore requiring
employment tax filers to provide additional information at the time payments are made and to
develop other potential solutions for gathering additional information regarding excise tax
payments. The IRS did not, however, develop a detailed action plan or establish specific action
items and expected completion dates in support of this approach. Overall, we found the IRS has
not made significant progress in either requiring employment tax filers to provide additional
information or developing potential solutions for gathering this information from excise tax filers
since 2003.



1
Financial Audit: IRS’ Fiscal Years 2004 and 2003 Financial Statements (GAO-05-103, dated November 2004).
2
 The CADE is an online modernized data infrastructure that will house taxpayer accounts and tax return data for
more than 200 million individual and business taxpayers.
                                                                                                                  2
                           The Custodial Detail Database Should Help Improve
                        Accountability; However, Significant Financial Management
                                    Issues Still Need to Be Addressed


In addition to developing the CDDB, the IRS recently prepared a crosswalk3 that correlates its
custodial general ledger accounts to the United States Standard General Ledger (USSGL) Chart
of Accounts. Our review of the crosswalk indicated the IRS did not specify the source of the
data, such as system names or account numbers, used to populate 18 required USSGL accounts.
We reported this condition to the IRS on May 9, 2005, and it has already begun developing
additional documentation in support of the 18 accounts. All Federal agencies are required to
maintain their financial data in a manner consistent with the USSGL.
Finally, our review of the methodology the IRS uses to prepare its annual financial statements
indicated that it currently relies on a series of complex data extractions from its detail taxpayer
transaction records to identify and accumulate key revenue-related transactions. The IRS
informed us that the CDDB will not eliminate this process but rather will provide a platform to
help simplify and streamline the existing methodology. Our analysis of the IRS’ FY 2005
extraction methodology identified several instances in which the extraction and compilation
criteria were not consistent with the most current definition of the data fields being extracted.
For example, the current extraction and compilation criteria incorrectly categorized financial
transactions relating to potentially as many as 6,000 individual taxpayers as being business
taxpayer related. We reported this condition to the IRS on June 10, 2005, and it advised us that it
will adjust the data that has already been collected in preparation for the current financial
reporting cycle, and revise the extraction criteria used for the next financial reporting cycle.

Recommendations
The Chief Financial Officer (CFO) should develop a custodial interim reporting model in support
of the CDDB. The model should address the methodology that will be used to calculate the
collectibility of receivables and the presentation of this information in the IRS’ custodial general
ledger. The CFO should also coordinate the development of a detailed action plan including
specific action items and expected completion dates in support of its efforts to 1) explore
requiring employment tax filers to provide additional information at the time payments are made
and 2) develop an approach for gathering this type of information from excise tax filers that does
not involve an excessive burden on the taxpayer. In addition, the CFO should ensure the source
financial systems and applicable subsidiary accounts used to populate all of the IRS’ custodial
general ledger accounts are clearly specified in its USSGL crosswalk. Finally, the CFO should
develop procedures requiring a periodic review of the extraction and compilation criteria for
consistency with current definitions of key data fields.




3
    A crosswalk is a document which links two or more different classification systems.
                                                                                                  3
                        The Custodial Detail Database Should Help Improve
                     Accountability; However, Significant Financial Management
                                 Issues Still Need to Be Addressed



Response
The CFO agreed with the recommendations in the report. The CFO, through the Associate CFO
for Revenue Financial Management, will evaluate prior reporting models to determine
applicability and identify opportunities to improve the methodology. The Associate CFO for
Revenue Financial Management, the appropriate IRS business owners, and other stakeholders
will discuss ways to evaluate the information employment taxpayers are currently providing at
the time of payment and alternative actions the IRS can take using the CDDB. Options to
acquire information from excise tax filers that do not involve an excessive burden on the
taxpayer will also be explored and long-term plans will be developed for the CDDB to capture
enhanced revenue information from the CADE. Additional information regarding the IRS’
custodial general ledger accounts will be included in the next revision of the applicable Internal
Revenue Manual section. Finally, the extraction criteria will be reviewed for consistency with
current Master File4 processing each year. Management’s complete response to the draft report
is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




4
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                                  4
                            The Custodial Detail Database Should Help Improve
                         Accountability; However, Significant Financial Management
                                     Issues Still Need to Be Addressed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Detailed Plans Are Needed to Address Several Financial
          Management Issues.......................................................................................Page 3
                    Recommendations 1 and 2: ................................................Page 6

          Additional Documentation Regarding a Number of Custodial
          Accounts Would Improve the Usefulness of the Crosswalk
          Between the Internal Revenue Service’s General Ledger and the
          United States Standard General Ledger........................................................Page 7
                    Recommendation 3:..........................................................Page 7

          Periodic Analysis of Criteria Used to Extract Data for the Internal
          Revenue Service’s Annual Financial Statements Would Help
          Enhance the Long Term Reliability of This Process.... ................................Page 8
                    Recommendation 4:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Management’s Response to the Draft Report ......................Page 14
                       The Custodial Detail Database Should Help Improve
                    Accountability; However, Significant Financial Management
                                Issues Still Need to Be Addressed




                                         Background

Financial management in the Federal Government requires accountability of financial and
program managers for financial results of actions taken, control over the Federal Government's
financial resources, and protection of Federal assets. To meet these requirements, financial
management systems must be in place to process and record financial events effectively and
efficiently, and to provide complete, timely, reliable, and consistent information for decision
makers and the public.1
Financial management within the Internal Revenue Service (IRS) is comprised of two primary
components: custodial accounting and administrative accounting. Administrative accounting
tracks and reports on salaries, rent, utilities, and other financial events related to the day-to-day
operation of the IRS. Custodial accounting tracks and reports tax monies that are deposited into
the Department of the Treasury’s general fund and used to support overall United States
governmental operations. Custodial accounting also tracks tax monies received for specific
purposes that are transferred to other agencies or entities; for example, excise taxes and payroll
taxes that constitute Social Security and Medicare payments.
During Fiscal Year (FY) 2004, the IRS collected over $2 trillion in Federal tax revenue, which
constituted approximately 95 percent of all Federal revenue. During this same period, the IRS
also distributed approximately $278 billion in Federal tax refunds. However, as reported by the
Government Accountability Office (GAO) for the last several years,2 the systems used to account
for these revenues do not meet current Federal financial management guidelines. As a result, the
IRS does not have the capacity to readily report on custodial operations throughout the year and
has to annually expend significant resources to prepare reliable annual financial statements. To
address these problems, the IRS has devoted significant resources over approximately the past
8 years to the development of the Custodial Accounting Project (CAP).
The CAP was designed to provide a comprehensive single, integrated data repository of financial
management information related to taxpayer accounts and collection information. The CAP was
also designed to support a large variety of financial performance information. Initially, over
190 potential users of the CAP financial performance information were identified.
However, the expected completion date and the developmental costs for the CAP greatly
exceeded original estimates, and the IRS elected to cancel the CAP in FY 2005. In response to
this, a new initiative with a significantly reduced scope, the Custodial Detail Database (CDDB),


1
 Office of Management and Budget Circular No. A-127, dated July 23, 1993.
2
 Financial Audit: IRS’ Fiscal Years 2004 and 2003 Financial Statements (GAO-05-103, dated November 2004).
Financial Audit: IRS’ Fiscal Years 2003 and 2002 Financial Statements (GAO-04-126, dated November 2003).
                                                                                                    Page 1
                        The Custodial Detail Database Should Help Improve
                     Accountability; However, Significant Financial Management
                                 Issues Still Need to Be Addressed



was designed. The CDDB is designed to contain selected taxpayer and assessment data and will
leverage the capabilities of other existing IRS systems to provide reporting capabilities. Query
capabilities will be limited to selected Chief Financial Officer (CFO) personnel. A critical
component of the CDDB is the ability to trace all transactions in the database to their original
source system. To accomplish this, the IRS plans to add a unique identifier for each financial
event recorded in the CDDB.
This review was performed at the Office of the CFO National Headquarters in Washington, D.C.,
and at the Andover Campus3 during the period March through May 2005. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




3
 Campuses are the processing arm of the IRS. They process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 2
                          The Custodial Detail Database Should Help Improve
                       Accountability; However, Significant Financial Management
                                   Issues Still Need to Be Addressed




                                       Results of Review

Detailed Plans Are Needed to Address Several Financial Management
Issues
The Federal Financial Management Improvement Act (FFMIA) of 19964 requires agencies to
implement and maintain systems that substantially comply with Federal accounting standards
and Federal financial management systems requirements. Specifically, agency financial systems
must have the capability to capture, classify, process, store, and retrieve the financial data needed
for their operations. Agency financial systems must also maintain adequate audit trails which
support the transactions and balances maintained in the financial systems. For example, the
systems must have the capability to trace transactions from their initial source through all stages
of related system processing, summarization, and financial reporting. Agency financial systems
must also provide complete, reliable, consistent, timely, and useful financial management
information on operations. For financial information to be timely and useful, the financial
systems must provide for ready access to the information they contain.
The GAO has repeatedly reported that the financial management systems the IRS uses to account
for Federal tax revenues do not meet these requirements. In its most recent financial statement
audit of the IRS, completed in November 2004, the GAO reported5 the following ongoing
weaknesses in the IRS’ Federal tax revenue financial management systems:
       •   Inadequate audit trails and a lack of integration with supporting records.
       •   Inability to readily generate custodial financial information needed for year-end
           reporting.
       •   Inability to readily produce current and reliable information regarding unpaid
           assessments at interim periods.
To address these weaknesses, the IRS is currently in the process of developing the CDDB. The
purpose of the CDDB is to provide sub-ledgers for the custodial activities of the IRS. These
sub-ledgers are designed to provide an audit trail between the IRS’ general ledger for custodial
activities and the applicable detail transaction level information and support records.



4
    Pub. L. No. 104-208, 110 Stat. 3009.
5
    Financial Audit: IRS’ Fiscal Years 2004 and 2003 Financial Statements (GAO-05-103, dated November 2004).


                                                                                                       Page 3
                         The Custodial Detail Database Should Help Improve
                      Accountability; However, Significant Financial Management
                                  Issues Still Need to Be Addressed



The IRS also plans to use the CDDB to track unpaid assessments throughout the year and to help
support the lengthy extraction, reconciliation, and summarization process needed to produce the
IRS’ annual financial custodial statements. The IRS plans to leverage the capabilities of other
existing IRS systems to provide for reporting of information from the CDDB, such as interim
unpaid assessments.
The IRS’ detailed plans for accomplishing these objectives are not yet sufficiently mature for us
to evaluate this effort in detail. However, our preliminary assessment indicates the IRS faces a
number of significant challenges in meeting these objectives, especially the development of a
system that would support the production of current and reliable information regarding tax
receivables throughout the year. For example, any system that the IRS develops to provide
information regarding tax receivables at interim periods would need to address collectibility and
accurately account for and eliminate duplicate assessments to be useful to end users and decision
makers.

Interim reporting of receivables needs to address collectibility
At present, the IRS only estimates the collectibility of tax receivables at year-end based on a
detailed statistical analysis of unpaid assessments. For example, in FY 2004 the IRS estimated
that only $20 billion (22 percent) of the $89 billion in gross Federal tax receivables in its records
were reasonably collectible. The IRS informed us that it is still in the process of developing a
workable approach for determining collectible tax receivables on an interim basis, and has not
developed detailed plans or a timetable. Also, the IRS has not yet determined how an interim
calculation of collectible tax receivables would be recorded in its custodial general ledger. The
IRS only added a provision for posting an allowance for doubtful accounts to its custodial
general ledger this year, and has not yet developed procedures governing the periodic posting of
data to this account.

Duplicate assessments need to be reliably identified and reconciled on an
ongoing basis
Similarly, the IRS only identifies and accounts for duplicate assessments made in connection
with the Trust Fund Recovery Penalty (TFRP)6 Program once per year through the expenditure
of significant resources. The reason this identification effort is so time consuming is the lack of
reliable detailed information in the IRS’ subsidiary records regarding individuals assessed this
penalty. In FY 2004, the IRS identified that its source records included $13 billion in duplicate
assessments related to the TFRP. Accurate interim reporting would require that these duplicate
assessments be reliably identified and accounted for on a more frequent basis. To address this

6
 The TFRP Program is an enforcement tool the IRS uses to collect unpaid trust fund taxes. If a business taxpayer
has failed to collect or pay trust fund taxes, the unpaid liability is assessed against the responsible officer(s).
Although the IRS assesses this penalty on multiple taxpayers, these assessments represent only one liability. The
IRS may collect the penalty from any combination of the business and related individual taxpayers.
                                                                                                             Page 4
                        The Custodial Detail Database Should Help Improve
                     Accountability; However, Significant Financial Management
                                 Issues Still Need to Be Addressed



ongoing problem, the IRS plans to initially use the CDDB to create a TFRP unpaid assessment
database. The IRS informed us that the CDDB TFRP database will allow it to identify
inconsistencies in its subsidiary records relating to TFRP assessments for investigation and
resolution on an ongoing basis throughout the year. We plan to begin a separate audit of the
IRS’ efforts to improve the reliability of its TFRP-related financial data in FY 2006.

Other material financial information-related internal control weaknesses still need
to be addressed
Although the CDDB should help improve custodial financial management, it will not by itself
resolve all of the IRS’ financial information-related internal control weaknesses. Specifically,
the GAO reported in its most recent financial statement audit that the IRS continues to be unable
to determine the specific amount of revenue it actually collects for three of the Federal
Government’s four largest revenue sources—Social Security, hospital insurance, and individual
income taxes. This is primarily because the accounting information needed to validate the
taxpayer’s liability and record the payment to the proper trust fund is provided on the tax return,
which is received months after the payment is submitted. The IRS collected $1.696 trillion in
individual income, Social Security, and hospital insurance taxes in FY 2004. However, to
provide a further breakdown of these taxes, the IRS had to use statistical methods to estimate that
$990 billion was for individual income taxes, and $706 billion was for Social Security and
hospital insurance taxes.
The GAO has also reported that the IRS continues to be unable to determine, at the time
payments are received, collections for the Highway Trust Fund and other trust funds that receive
excise tax receipts. The IRS reported collecting $55 billion in excise taxes in FY 2004.
Currently, the annual excise tax receipts reported by recipient trust funds include 3 months of
estimated receipts. The GAO concluded that this condition makes the Federal Government
reliant on a complex, multi-step process to distribute excise taxes to the recipient trust funds that
continues to be susceptible to error.
The IRS informed us that it plans to include the capability to accumulate additional data
regarding revenue sources into the Customer Account Data Engine (CADE)7 which is currently
being implemented. However, even with this enhanced ability to record revenue-related data the
IRS will still not be able to fully determine the specific amount of revenue it actually collects for
excise, individual income, Social Security, and hospital insurance taxes unless it requires
taxpayers to provide more information at the time tax payments are made. The IRS studied the
feasibility of collecting the additional information it needs and concluded that in the case of
individual income, Social Security, and hospital insurance taxes the burden on taxpayers would
be minimal. The IRS also concluded, however, that the burden on excise tax taxpayers could be


7
 The CADE is an online modernized data infrastructure that will house taxpayer accounts and tax return data for
more than 200 million individual and business taxpayers.
                                                                                                          Page 5
                      The Custodial Detail Database Should Help Improve
                   Accountability; However, Significant Financial Management
                               Issues Still Need to Be Addressed



significant. Based on the results of this study, the IRS decided in early 2003 to explore the
feasibility of requiring employment tax filers to provide additional information at the time
payments are made and to explore other potential solutions for gathering additional information
regarding excise tax payments.
The IRS did not, however, develop a detailed action plan or establish specific action items and
expected completion dates in support of this approach. Overall, we found the IRS has not made
significant progress in either requiring employment tax filers to provide additional information or
developing potential solutions for gathering this information from excise tax filers since 2003.
In addition, although the IRS informed us that it plans to include the capability to record
additional data regarding revenue sources into the CADE, it has not yet developed any long-term
plans as to how this type of data would be accumulated by the CDDB.

Recommendations
Recommendation 1: The CFO should develop a custodial interim reporting model in support
of the CDDB. The model should address the methodology that will be used to calculate
collectibility of receivables on an interim basis. The model should also address the presentation
of interim data and the recording of this information in the IRS’ custodial general ledger.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will evaluate the prior models it developed to determine if they are still applicable
       and to identify opportunities to improve the methodology. The IRS will also meet with
       the GAO to determine when and how frequently the methodology should be revised. The
       IRS will continue to use the current sampling approach supported by the GAO until it has
       consistent historical data that has been approved by the GAO.
Recommendation 2: The CFO, in concert with the Wage and Investment Division’s Offices
of Tax Forms and Publications, and Submission Processing, and with the Office of the Associate
Chief Information Officer Business Systems Development function, should coordinate the
development of a detailed action plan, including specific action items and expected completion
dates, in support of its efforts to 1) explore requiring employment tax filers to provide additional
information at the time payments are made; and, 2) develop an approach for gathering this type
of information from excise tax filers that does not involve an excessive burden on the taxpayer.
The CFO should also incorporate the development of a methodology to capture enhanced
revenue information from the CADE into the long-term planning for the CDDB.
       Management’s Response: IRS management agreed with this recommendation. On
       December 16, 2005, the appropriate IRS business owners and other stakeholders planned
       to meet to discuss this recommendation. The discussions were to center on ways to
       evaluate the information that employment taxpayers are currently providing at the time of
       payment to determine if there are alternative actions the IRS can take using the CDDB.
       The IRS will also explore options to acquire information from excise tax filers that does

                                                                                             Page 6
                           The Custodial Detail Database Should Help Improve
                        Accountability; However, Significant Financial Management
                                    Issues Still Need to Be Addressed



           not involve an excessive burden on the taxpayer. The IRS will develop long-term plans
           for the CDDB to capture enhanced revenue information from the CADE.

Additional Documentation Regarding a Number of Custodial
Accounts Would Improve the Usefulness of the Crosswalk Between
the Internal Revenue Service’s General Ledger and the United States
Standard General Ledger
The FFMIA of 1996 requires agencies to implement and maintain systems that substantially
comply with the United States Standard General Ledger (USSGL) at the transaction level. A
standardized chart of accounts provides the basic structure for the USSGL. The chart of
accounts incorporates both proprietary and budgetary accounts. Agencies may also create
additional sub-accounts as necessary to accommodate agency-specific requirements; however, all
subsidiary accounts must summarize or “roll-up” to the USSGL accounts.
In its most recent financial statement review of the IRS, the GAO reported that the IRS’
custodial general ledger does not use the standard Federal accounting classification structure. To
begin addressing this nonconformance, the IRS developed a crosswalk8 that correlates its
custodial general ledger accounts to the USSGL Chart of Accounts. As a result of preparing this
crosswalk, the IRS identified 18 USSGL required accounts that did not directly correlate to any
existing accounts within its current custodial general ledger and created 18 new custodial
accounts.
However, the IRS’ crosswalk does not include either the specific source of the data, such as
system name and account numbers, which will be used to populate these 18 new accounts, or
specify the frequency with which the accounts will be updated. For example, these accounts
include other revenue, other custodial assets, seized monies, and miscellaneous revenue. We
reported this condition to the IRS on May 9, 2005, and it has already begun developing
additional documentation in support of the 18 accounts. The absence of key information on
some accounts undercuts the usefulness of the crosswalk as a tool to improve the IRS’
compliance with the format requirements of the USSGL.

Recommendation
Recommendation 3: The CFO should ensure the source financial systems and applicable
subsidiary accounts used to populate all of the IRS’ custodial general ledger accounts are clearly
specified in its USSGL crosswalk.




8
    A crosswalk is a document which links two or more different classification systems.
                                                                                            Page 7
                        The Custodial Detail Database Should Help Improve
                     Accountability; However, Significant Financial Management
                                 Issues Still Need to Be Addressed



        Management’s Response: IRS management agreed with this recommendation. The
        IRS will include the information regarding these accounts in the next revision of the
        applicable Internal Revenue Manual section.

Periodic Analysis of Criteria Used to Extract Data for the Internal
Revenues Service’s Annual Financial Statements Would Help
Enhance the Long Term Reliability of This Process
To prepare its annual financial statements, the IRS performs a series of complex data extractions
from its detail taxpayer transaction records. The data compiled from the extractions form the
basis of the information reported on the IRS’ financial statements regarding custodial activities
such as revenue receipts and tax account receivables. The IRS informed us that the CDDB will
not eliminate this process but rather will provide a platform to help simplify and streamline the
existing methodology.
The data extraction criteria and compilation methodology are defined on a Request for
Information Services (RIS), which is prepared by CFO personnel and submitted annually. One
of the primary data elements which drive the extraction and compilation process is the Master
File Tax (MFT) 9 code. The MFT code designates the particular type of tax attributable to a
given transaction. The Internal Revenue Manual contains 75 current MFT codes as of
January 1, 2005.
Our review of the IRS’ 2005 extraction methodology identified several instances where
extraction and compilation criteria are not consistent with the most current definition of the data
fields being extracted. For example:
    •   The 2005 RIS contains compilation criteria incorrectly categorizing financial transactions
        relating to potentially as many as 6,000 individual taxpayers as being business taxpayer
        related. The mis-categorized data related to individual taxpayers who the IRS designated
        as meeting Innocent Spouse status.10
    •   The 2005 RIS contains extraction and compilation criteria relating to three MFT codes
        which have been obsolete for at least 6 years. One of the MFT codes was a Monthly Tax
        Return - Manufacturer of Cigarette Papers and Tubes (Form 2137) and has been obsolete
        since 1988.



9
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data. The MFT codes are contained on
the Master File and reduce the numerous types of taxes to a two digit code.
10
   Congress passed the IRS Restructuring and Reform Act of 1998 in part to address the concerns about protecting
the innocent spouse who signed a joint return without knowledge of specific items on the tax return and became
personally liable for the errors of his/her spouse.
                                                                                                         Page 8
                     The Custodial Detail Database Should Help Improve
                  Accountability; However, Significant Financial Management
                              Issues Still Need to Be Addressed



The IRS informed us that the RIS utilized for the annual data extraction and compilation
selection process has not been materially updated since 1997. Periodic review of the extraction
selection and compilation criteria is critical to ensuring the accuracy of data produced.
We reported this condition to IRS management on June 10, 2005, and they advised us that they
will adjust the data that have already been collected in preparation for the current financial
reporting cycle and revise the extraction criteria used for the next financial reporting cycle.

Recommendation
Recommendation 4: The CFO should develop procedures requiring a periodic review of the
extraction and compilation criteria for consistency with current definitions of key data fields
such as the MFT.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will review extraction criteria for consistency with current Master File processing
       each year. The IRS will also make necessary changes to the extraction criteria and
       submit the requirements in a RIS.




                                                                                          Page 9
                     The Custodial Detail Database Should Help Improve
                  Accountability; However, Significant Financial Management
                              Issues Still Need to Be Addressed



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Internal Revenue Service (IRS) has
developed an effective plan to improve accountability over Federal tax revenues, and to ascertain
whether applicable Federal financial accounting standards and requirements were addressed in
any planned enhancements to the IRS’ existing revenue accounting systems. To accomplish our
objective, we:
I.     Ascertained whether the IRS has taken effective steps to develop a reliable methodology
       to accumulate and report Federal tax revenues, receivables, and collections data in a
       format compliant with the Federal financial accounting standards.
       A. Interviewed applicable Chief Financial Officer (CFO) personnel regarding the
          progress to date on efforts to develop a United States Standard General Ledger
          (USSGL) based revenue accounting system.
       B. Determined whether the IRS has developed a comprehensive action plan to guide its
          future efforts to develop a USSGL based revenue, receivables, and collections
          accounting system.
           1. Reviewed the action plan timetable, funding estimates, and staffing for
              reasonableness.
           2. Ascertained whether the action plan includes the inter-functional coordination
              necessary.
       C. Ascertained whether the proposed Custodial Detail Database system design will result
          in the IRS improving compliance with the USSGL.
           1. Compared the proposed system chart of accounts with the USSGL chart of
              accounts and investigated any variances.
           2. Evaluated the adequacy of the proposed system audit trails and detailed subsidiary
              ledgers.
           3. Analyzed the ability of the proposed system to provide periodic agency-wide
              financial reporting.




                                                                                           Page 10
                    The Custodial Detail Database Should Help Improve
                 Accountability; However, Significant Financial Management
                             Issues Still Need to Be Addressed



      D. Reviewed the proposed system documentation and design specifications and
         determined whether it meets all applicable Joint Financial Management Improvement
         Program/CFO-Financial Management Systems Checklist standards.
         1. Interviewed CFO personnel regarding the methodology used in determining the
            operation and control requirements for the proposed system.
         2. Compared the proposed system specifications with the applicable Joint Financial
            Management Improvement Program requirements.
II.   Determined whether the IRS has developed a workable approach for calculating actual
      annual receivables/receipts for the various types of taxes it is responsible for collecting.
      A. Interviewed applicable CFO personnel regarding the progress to date on efforts to
         develop a methodology for calculating actual annual receivables/receipts for the
         various types of taxes it is responsible for collecting.
      B. Reviewed any planned efforts to develop a methodology for calculating actual annual
         receivables/receipts for the various types of taxes it is responsible for collecting.
      C. Evaluated the impact on taxpayer burden of any proposed enhanced information
         gathering approach.




                                                                                            Page 11
                    The Custodial Detail Database Should Help Improve
                 Accountability; However, Significant Financial Management
                             Issues Still Need to Be Addressed



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Mildred Rita Woody, Lead Auditor
James Mills, Jr., Senior Auditor
Richard Louden, Auditor




                                                                                      Page 12
                    The Custodial Detail Database Should Help Improve
                 Accountability; However, Significant Financial Management
                             Issues Still Need to Be Addressed



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Chief Information Officer OS:CIO
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief Financial Officer OS:CFO




                                                                       Page 13
        The Custodial Detail Database Should Help Improve
     Accountability; However, Significant Financial Management
                 Issues Still Need to Be Addressed



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 14
   The Custodial Detail Database Should Help Improve
Accountability; However, Significant Financial Management
            Issues Still Need to Be Addressed




                                                      Page 15
   The Custodial Detail Database Should Help Improve
Accountability; However, Significant Financial Management
            Issues Still Need to Be Addressed




                                                      Page 16
   The Custodial Detail Database Should Help Improve
Accountability; However, Significant Financial Management
            Issues Still Need to Be Addressed




                                                      Page 17
